Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
T +1 202 637 5600
F +1 202 637 5910
www.hoganlovells.com

June 8, 2021
BY ELECTRONIC FILING
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Young v. Hawaii, No. 20-1639

Dear Mr. Harris:
I represent respondent in the above-referenced petition for certiorari. A response is
currently due on June 24, 2021. Respondent respectfully requests that the time to file a response
be extended by 30 days, to and including Monday, July 26, 2021.
The extension is warranted because the undersigned counsel, Neal Katyal, has upcoming
deadlines in several other matters that will require his attention over the coming weeks, including
a reply brief in support of an injunction in In re Citibank August 11 Wire Transfers, No. 21-487
(2d Cir.), due June 8; a reply brief in support of certiorari in Kelley v. United States, No. 20-7474
(U.S.), due June 9; a meeting with the Solicitor General’s office regarding this Court’s call for the
view of the Solicitor General in Independent School District No. 283 v. E.M.D.H. ex rel L.H., No.
20-905 (U.S.) on June 11; a response to a motion for a new trial in State v. Chauvin (D. Minn.),
due June 16; an en banc oral argument in City of Oakland v. Wells Fargo & Co., No. 19-15169
(9th Cir.) on June 23; a petition for a writ of certiorari in Ezaki Glico Kabushiki Kaisha v. Lotte
International America Corp., No. 19-3010 (3d Cir.), due June 25; a reply brief in support of
certiorari in Omwega v. Garland, No. 20-1395 (U.S.), due July 28; and a petition for a writ of
certiorari in United States v. Rodríguez-Rivera, No. 19-1529 (1st Cir.), due August 2. Given these
commitments, an extension of time is warranted to permit Mr. Katyal to prepare a response that
fully analyzes and responds to the arguments raised in the petition for certiorari.
Respectfully submitted,
/s/ Neal Kumar Katyal
Neal Kumar Katyal
Counsel of Record for Respondent
cc:

Alan Alexander Beck

Hogan Lovells US LLP is a limited liability partnership registered in the District of Columbia. “Hogan Lovells” is an international legal practice that includes Hogan Lovells US LLP
and Hogan Lovells International LLP, with offices in: Alicante Amsterdam Baltimore Beijing Birmingham Boston Brussels Colorado Springs Denver Dubai Dusseldorf
Frankfurt Hamburg Hanoi Ho Chi Minh City Hong Kong Houston Johannesburg London Los Angeles Luxembourg Madrid Mexico City Miami Milan Minneapolis Monterrey
Moscow Munich New York Northern Virginia Paris Perth Philadelphia Rome San Francisco São Paulo Shanghai Silicon Valley Singapore Sydney Tokyo Warsaw
Washington, D.C. Associated Offices: Budapest Jakarta Riyadh Shanghai FTZ Ulaanbaatar Zagreb. Business Service Centers: Johannesburg Louisville. Legal Services
Center: Berlin. For more information see www.hoganlovells.com

